CERTIFICATE OF COMPLIANCE WITH WORD COUNT

No. S-
TRUE HARMONY et al.,

Petitioners,
v.

DEPARTMENT OF JUSTICE OF STATE OF CALIFORNIA, et al.

Respondents.

As required by Supreme Court Rule 33.1(h), I hereby certify that
the word count of this petition for writ of certiorari as measured by
_ the Microsoft Word@© word processing software is 7500 words in
length.

Dated: December 16, 2020 Respectfully submitted,

/s/ Jeffrey G. Thomas

JEFFREY G. THOMAS

201 Wilshire Blvd. Second
Floor

Santa Monica, California
90401

Telephone: 310-650-8326
Attorney at law for
Petitioners and Petitioner In
Propria Persona

Certificate of Word Count for Petition for Writ of Certiorari in U. S. Supreme Court —
True Harmony v. Department of Justice of State of California
